<html>
<title> - THE IDEOLOGY OF ISIS</title>
<body><pre>[Senate Hearing 114-706]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-706

                          THE IDEOLOGY OF ISIS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             SECOND SESSION

                               __________

                             JUNE 21, 2016

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
        
        
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
        
        
        
                          U.S. GOVERNMENT PUBLISHING OFFICE 

24-130 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
         
        
        
        
        
        
        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                  Christopher R. Hixon, Staff Director
             David S. Luckey, Director of Homeland Security
        Elizabeth E. McWhorter, Senior Professional Staff Member
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
       Harlan C. Geer, Minority Senior Professional Staff Member
              Eric K. Hanson, Minority U.S. Army Detailee
                     Laura W. Kilbride, Chief Clerk
                   Benjamin C. Grazda, Hearing Clerk
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     2
    Senator Ayotte...............................................    16
    Senator Tester...............................................    17
    Senator Heitkamp.............................................    19
    Senator Peters...............................................    21
    Senator Baldwin..............................................    23
    Senator Lankford.............................................    25
    Senator Booker...............................................    26
Prepared statements:
    Senator Johnson..............................................    35
    Senator Carper...............................................    36

                                WITNESS
                         Tuesday, June 21, 2016

Hassan Hassan, Resident Fellow, Tahrir Institute for Middle East 
  Policy, and Co-Author, ``ISIS: Inside the Army of Terror''.....     4
Tarek Elgawhary, Ph.D., Director Religious Studies Programs, 
  World Organization for Resource Development and Education......     6
Subhi Nahas, Chairman of the Board, Spectra Project..............     8
Nadia Murad, Human Rights Activist...............................     9

                     Alphabetical List of Witnesses

Elgawhary, Tarek.:
    Testimony....................................................     6
    Prepared statement...........................................    74
Hassan, Hassan:
    Testimony....................................................     4
    Prepared statement with attachment...........................    38
Murad, Nadia:
    Testimony....................................................     9
    Prepared statement...........................................    80
Nahas, Subhi:
    Testimony....................................................     8
    Prepared statement...........................................    78

                                APPENDIX

Responses to post-hearing questions for the Record
    Mr. Hassan...................................................    83
    Mr. Elgawhary................................................    85
    Mr. Nahas....................................................    90
    Ms. Murad....................................................    91

 
                          THE IDEOLOGY OF ISIS

                              ----------                              


                         TUESDAY, JUNE 21, 2016

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Lankford, Ayotte, 
Ernst, Carper, McCaskill, Tester, Baldwin, Heitkamp, Booker, 
and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will come to 
order.
    We do have one witness who parked over at Union Station. He 
is making his way over here. I thought we would get going, and 
he can join us when he gets here.
    I want to thank the witnesses for appearing, for your time, 
and for your testimonies.
    The mission statement of this Committee--you have heard it, 
repeatedly, but I will repeat it again--is to enhance the 
economic and national security of America. On the homeland 
security side, one of our top four priorities is, certainly, 
doing whatever we can to keep our homeland safe--to counter 
Islamic terror.
    The goal of every hearing, from my standpoint--coming from 
a manufacturing background, I solved a lot of problems. The 
first step in solving a problem is admitting you have one--
properly identifying it, defining it, but really facing 
reality. And so, the goal of every hearing is to lay out a 
reality, so that, certainly, the Members of the Committee and 
the people in the audience understand what we are dealing with, 
in terms of a particular problem.
    Today's hearing is our eighth hearing dealing with some 
form or component of the threat we face from Islamic terror. It 
is a harsh reality. It is one I wish was not true. It is one I 
wish we did not have to face. But, we have to.
    We are going to be hearing testimonies today that will be 
hard to hear. It will be hard to hear, but they are testimonies 
that, I think, are incredibly important for us to hear.
    So, again, I thank the witnesses for appearing. I would ask 
that my written statement be entered into the record,\1\ 
without objection.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 35.
---------------------------------------------------------------------------
    It is important for us to understand that Islamic 
terrorists declared war on the United States. Quite honestly, 
Islamic terrorists declared war on the civilized world. We did 
not declare war on them. They declared war on us.
    I cannot exactly point to the date, but, certainly, one 
that is pretty visible was the first attempt to bring down the 
Twin Towers at the World Trade Center. That was on February 26, 
1993. And, the fact that we did not face the full reality, 
right there and then, I think, eventually led to the fact that 
we then faced the tragedy of the attack on September 11, 2001 
(9/11), a terrorist attack where almost 3,000 Americans were 
slaughtered.
    Now, there are two ways to end a war--only two ways: either 
one side defeats the other or both sides decide to lay down 
their arms. The tragic events of yet another terror attack, 
inspired by the Islamic State of Iraq and Syria (ISIS), on this 
country, in Orlando, Florida, has proven Islamic terrorists are 
not laying down their arms. So, the only way we are going to 
end this war and the only way we are going to keep our homeland 
safe and return peace to the civilized world, is if we defeat 
Islamic terrorists--if we defeat ISIS.
    Now, on September 10, 2014, President Obama laid out 
America's goal, as it relates to ISIS. It is pretty simply 
stated: to degrade and, ultimately, defeat them. That was 22 
months ago.
    In his testimony last week, before the Senate Foreign 
Relations Committee (SFRC), Central Intelligence Agency (CIA) 
Director John Brennan laid out the reality, as it relates to 
our success--or lack thereof--in our war on ISIS. And, he 
testified--and this is a quote--that ``ISIS remains a 
formidable, resilient, and largely cohesive enemy,'' and that 
``our efforts have not reduced [their] terrorism capability and 
their global reach.''
    Now, that is a depressing reality after 22 months, but it 
is a reality we have to face.
    Again, I just want to thank the witnesses. Do not hold 
back. Lay out the reality. Make sure that, certainly, the 
Senators on this dais, as well as the American people, 
understand the threat--the enemy we face--and why it is just 
crucial that we actually defeat them. I wish they would lay 
down their arms. I wish they would declare peace. But, it does 
not seem like that is going to happen.
    With that, I will turn it over to my Ranking Member, 
Senator Carper.

           OPENING STATEMENT OF RANKING MEMBER CARPER

    Senator Carper. Thank you. Thank you, Mr. Chairman.
    First of all, thank you for delaying this hearing for a 
week, so that our witnesses could be assembled and we could 
have more time to prepare. We welcome each of you. Thank you 
for coming and sharing with us your stories and your 
perspectives. They are valued, and we are delighted that you 
could come.
    I want to just follow up, very briefly, on how the fight 
against ISIS is going. I went over a map of that part of the 
world, today, and the United States--and our coalition forces, 
which now number about 60 nations--have recaptured almost 50 
percent of the land that ISIS once held in Iraq and in Syria. 
Almost 50 percent. I think we are up about 47 percent. ISIS has 
also lost 20 percent of the land it once held in Syria. Ramadi 
and Tikrit were key victories for the U.S.-backed Iraqi forces. 
And, last Friday, Iraqi forces--ground forces--captured the 
city center of Fallujah and are now working to clear out the 
last few pockets of resistance in that city. And, that is only 
about 20 miles to 25 miles west of Baghdad.
    As we speak, Kurdish, Iraqi, and Syrian democratic forces, 
backed by the U.S. Special Operations Forces (SOF), are making 
preparations to retake ISIS's key strongholds in Mosul and 
Raqqa. We have killed some 25,000 ISIS fighters and more than 
120 key ISIS leaders. We have cut ISIS funds by a third or 
more. We have literally destroyed hundreds of millions of 
dollars in cash that they were hoarding, and we have reduced, 
by a dramatic amount, their ability to realize profits from oil 
reserves and resources in that part of the world.
    We have, drastically, slowed the flow of foreign recruits 
from a high of about 2,000 a month, in 2014, to 200 a month, 
today. And, that also goes for young Americans who have sought 
to travel and join ISIS. About 1 year ago, every month, about 
10 Americans were leaving this country to join ISIS. Today, 
that number is one per month. And, at home, the Federal Bureau 
of Investigations (FBI) is cracking down on recruits as well. 
And, over the past 2 years, the FBI has arrested 88 individuals 
on ISIS-related charges.
    I was a naval flight officer (NFO) for 23 years--combined 
active and reserve duty. I served 5 years in a hot war in 
Southeast Asia--I know a little bit about fighting wars--and 
another 18 years, right up to the end of the Cold War, as a P-3 
Orion aircraft mission commander. And, one of the ways we are 
going to win this fight is not by ourselves. There is not an 
appetite in this country for putting boots on the ground. But, 
there is an appetite for working with the coalition of 
countries, throughout the region and around the world, and that 
is what we are doing. And, I believe we are making progress. Is 
it perfect? Are we where we want to be? Is this where we want 
to go? No, it is not. But, I think we are making progress.
    The other thing I want to say is that, last Saturday, 9 
days ago--10 days ago, my wife and I went up to New York. We 
have a son who lives in that area--in the city--and he took us, 
for Father's Day and for his mom's birthday, to the 9/11 
Memorial Museum, which is located right on the location where 
the Twin Towers once stood. I was reminded there, as we saw the 
faces and the names and as we heard the voices of the family 
members of some of the 3,000 people who died that day--I was 
reminded of the way we responded to that tragedy. In this room, 
we helped to create the National Commission on Terrorist 
Attacks Upon the United States (9/11 Commission). In this room, 
we received some 40 recommendations from the bipartisan group--
the 9/11 Commission--presented to us by Tom Kean, former 
Governor of New Jersey, and presented to us by Lee Hamilton, 
former Chairman of the House Foreign Affairs Committee--co-
chairs of the 9/11 Commission. They presented to us, after 
months and months of work, some 40 recommendations that they 
came to, unanimously, on what we could do to reduce the 
likelihood that these kinds of attacks would occur again. We 
adopted, maybe, 80 percent of them--again, almost unanimously, 
and then set about implementing them.
    The response to that tragedy was bipartisan. It was a 
unified approach, and I think, ultimately, it has been 
successful. Ultimately, it has been successful. And, when you 
compare that response to the response to the tragedy in 
Orlando, it could not be more different. It could not be more 
different.
    My hope, today, is that we are going to have the kind of 
conversation, with all of you, that will enable us to better 
improve this fight--and this is a fight that we are going to 
win--the fight against ISIS. And, we have a lot of allies that 
happen to be, not just folks in this country and not just 
people who might be Catholic or Protestant, but people of all 
faiths, including the Muslim faith. And, together, we are going 
to prevail.
    Thank you so much. And, Mr. Chairman, I would ask unanimous 
consent, if I could, that the rest of my statement be entered 
into the record.\1\ Thank you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Carper appears in the 
Appendix on page 36.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    It is the tradition of this Committee to swear in 
witnesses, so if you will all rise and raise your right hand. 
Do you swear the testimony you will give before this Committee 
will be the truth, the whole truth, and nothing but the truth, 
so help you, God?
    Ms. Murad. Yes.
    Mr. Nahas. I do.
    Mr. Hassan. I do.
    Mr. Elgawhary. I do.
    Chairman Johnson. Please be seated.
    Our first witness is Hassan Hassan. Mr. Hassan is an 
associate fellow at the Tahrir Institute for Middle East Policy 
(TIMEP). Mr. Hassan co-authored ``ISIS: Inside the Army of 
Terror.'' In 2008, he started working in Abu Dhabi in 
journalism and research, focusing on Syria, Iraq, and the Gulf 
States and studying Islamist, Salafist, and jihadist movements 
in the wider region. Mr. Hassan.

    TESTIMONY OF HASSAN HASSAN,\2\ RESIDENT FELLOW, TAHRIR 
INSTITUTE FOR MIDDLE EAST POLICY, AND CO-AUTHOR, ``ISIS: INSIDE 
                      THE ARMY OF TERROR''

    Mr. Hassan. Thank you, Chairman Johnson, Ranking Member 
Carper, and Members of the Committee.
---------------------------------------------------------------------------
    \2\ The prepared statement of Mr. Hassan appears in the Appendix on 
page 38.
---------------------------------------------------------------------------
    By way of introduction, I also want to add that I come from 
an ISIS-controlled, area that is still controlled today. I have 
also interviewed dozens of ISIS members for my book and for 
other research. And, I want to say this: This is not a 
sectarian war. The very people that ISIS claims to represent 
are victims of its brutality just as much as everyone else. 
This is the reality felt on a daily basis. When family and 
friends go to the market and see severed heads on pipes, when 
ISIS condemns its Sunni opponents--people that they claim to 
represent--as apostates--they burn them alive, they stab their 
hearts before they shoot them, and when they display their dead 
bodies for days in central squares--when it says to its fellow 
Sunnis, ``It does not matter if you pray, if you fast on 
Ramadan, or if you turn your face toward Mecca and pray, we 
will still kill you as long as you do not pledge allegiance to 
us.'' Not far from where I come from, in my area, called Deir 
Ezzor, ISIS killed 700 Sunni villagers, in a matter of days, 
because they dared to stand up against the group.
    And, I want to move on to say that, as a belief system, 
those who believe in the sort of ISIS ideology are a minority, 
not only in the Muslim world but also within the group. During 
my research, I found that members come in six categories:
    One, longstanding religious radicals who deviate even from 
al-Qaeda. For example, they believe that there is no sanctity 
of life. Unlike al-Qaeda, which, for example, justifies killing 
civilians--but only as collateral damage--ISIS considers 
killing civilians, themselves, as the preferred outcome. In 
fact, just a month ago--exactly a month ago, the spokesperson 
for ISIS said--when he called for sympathizers in the West, in 
Europe, and in the United States to launch attacks, he said, 
``I receive complaints from people--sympathizers--saying we 
could not find military targets and we are afraid to kill 
civilians.'' And, he said, ``There is no such thing as innocent 
civilians in the West.'' And, in fact, he moved on to say, ``We 
prefer that you kill civilians.'' And, he said, ``I do not have 
time to justify that,'' basically. He did not even give the 
justification during the statement.
    And, the second category of people who join ISIS are young 
zealots, who are victims of the first category--people who are 
between age 12 and 17, people who are drawn to this idea of a 
caliphate, and so on and so forth. They are brainwashed. They 
are taught Islam in a way that ISIS understands, which distorts 
a lot of things. And, because people do not have religious 
knowledge, they hear a lot about the events as well as the 
traditions that ISIS relates for the first time.
    And, there is a third category, which is very important: 
people who are drawn to ISIS's political ideology--not 
religious one--and this is a major problem, not only within 
ISIS, but, I think, in the region--people who are drawn to this 
political ideology, not only for ISIS, but for al-Qaeda and for 
other Islamist groups, because they think there is political 
stagnation in the region and only these groups can actually 
shake up the political order in the region.
    And, I think Omar Mateen belongs to this category of people 
that are only superficially influenced by this organization. 
He, obviously, did not follow their way of life, but he was 
still animated, probably, by this idea of ISIS.
    The other categories are those who are drawn to the group 
because of its military success, its model of governance, an 
attraction to its brutality, or, simply, they are profiteers. 
But, the group--and this is important. The group swims in a sea 
of political failures in the region--and that is where we 
should focus. It is not a surprise, for example, that ISIS 
emerged in Iraq and in Syria, countries that suffered 
unimaginable brutality and violence over the past decade, in 
the case of Iraq, and half of a decade, in the case of Syria.
    The group has built its narrative around the idea of Sunni 
victimization. It benefitted from the brutal reality, in both 
Iraq and Syria, to say that Sunnis are, systematically, under 
attack by Iranian-backed militias or governments in those two 
countries, that the two greatest superpowers in the world are 
helping both of them, and that there are traitors--apostates, 
in other words--in our midst who help them.
    It is important--without downplaying the genocidal acts of 
ISIS--to highlight that the regime of Bashar al-Assad, in 
Damascus, had carried out almost all of the atrocities--
probably, without an exception--that ISIS has committed even 
before ISIS arrived in Syria. In 2012, for example, pro-
government militias in Syria stormed villages, slaughtered 
children and women, and smashed--using rocks--the heads of 
condemned people.
    I just want to conclude by saying and emphasizing that ISIS 
thrives in this context and should be defeated in this context 
in order to stem its international appeal. This can only happen 
at the hands of the very people that ISIS claims to represent.
    Thank you very much.
    Chairman Johnson. Thank you, Mr. Hassan.
    Our next witness is Dr. Tarek Elgawhary. Dr. Elgawhary is 
Director of Religious Studies Programs for the World 
Organization for Resource Development and Education (WORDE). 
Dr. Elgawhary also serves as the Chief Executive Officer (CEO) 
of the Coexist Corporation and as a trustee of the Coexist 
Foundation. He has a Doctor of Philosophy (Ph.D.) from 
Princeton in Islamic law and he studied traditional Islamic 
sciences at Al-Azhar Seminary in Cairo, Egypt. Dr. Elgawhary.

  TESTIMONY OF TAREK ELGAWHARY, PH.D.,\1\ DIRECTOR, RELIGIOUS 
 STUDIES PROGRAMS, WORLD ORGANIZATION FOR RESOURCE DEVELOPMENT 
                         AND EDUCATION

    Mr. Elgawhary. Senator Johnson, Senator Carper, and other 
Members of the Committee, thank you very much for this 
opportunity. I would like to make very brief introductory 
remarks and, maybe, save the other discussion points for the 
question and answer portion.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Elgawhary appears in the Appendix 
on page 74.
---------------------------------------------------------------------------
    I would like to add to what Senator Johnson said, in the 
beginning, that, before ISIS or the Islamic State of Iraq and 
the Levant (ISIL) and other related groups declared war on our 
homeland, they declared war on Islam. And, this is not only a 
threat to our homeland--not only a threat to our national 
security, but an existential threat to our religion.
    Normative Islam, in both its Sunni and Shia expressions, is 
defined by a very robust, interpretive methodology. That is 
what you go to seminary to be trained in.
    Very briefly, this interpretive methodology requires one to 
understand the divine text--to understand the text of the Quran 
and to understand the various statements of the prophet. There 
are 6,236 verses in the Quran. There are about 60,000 to 70,000 
prophetic texts and their different narrations. There are over 
100,000 narrations of these prophetic texts.
    Understanding the divine text means understanding about a 
dozen different sciences, beginning with Arabic grammar, 
syntax, morphology, and logic--all of these are different 
interpretive tools that we use to understand what the text 
actually means in the context in which it was revealed.
    The second thing is to understand the context that we live 
in now--the current moment--understanding full well that people 
change, times change, circumstance change, and location and 
place change. How does one fast the month of Ramadan in the 
northern latitudes, which the early Muslim generations never 
experienced? How do we deal with usury in the light of fiat 
currency--currency that is not backed by gold or silver 
bullion--and so on and so forth? So then, that further adds the 
idea that one needs to understand the current moment that we 
live in as well as its complexity and its changing.
    And then, the third aspect of this interpretive paradigm 
is, how do we link the divine text into the current moment in 
which we live--and that, as we were taught, is a talent. Not 
everyone is endowed with that type of talent.
    Violent and extremist groups, like ISIL, have no 
interpretation, whatsoever--nor do they have a fundamental 
understanding of Islam. They are unlettered warmongers who 
have, in essence, created a parallel religion. Yet, this 
parallel religion that they call to is no more Islamic than a 
pool with one lemon squeezed in it is lemonade.
    And, because of the gross misunderstanding of the primary 
text and because of their lack of a robust interpretive 
methodology, the good news is, we are able to identify what is 
so wrong with their thinking. And, in my work and in my 
analysis, I have been able to deduce about a half dozen or so 
main concepts that they have, and I have been able to trace 
them back to a certain cluster of sources that are used by 
every single Islamist extremist group from the middle of the 
20th Century until our time, today. And, in that, I am able to 
isolate those concepts. We are able to provide a counter-
narrative and deal with it.
    Now, I do not have an army at my disposal. I do not own any 
weapons, whatsoever. I leave that to law enforcement. What I do 
have is, I have my intellect and I have my scholarly training. 
And, I can employ that to provide a robust counter-narrative to 
inoculate our youth, to protect the next generation, and to 
make it absolutely, unequivocally clear that what ISIL 
represents and what they stand for has nothing to do with the 
religion, whatsoever.
    Thank you.
    Chairman Johnson. Thank you, Dr. Elgawhary.
    Our next witness is Subhi Nahas. Mr. Nahas is an activist 
for lesbian, gay, bisexual, and transgender (LGBT) rights, who 
fled Syria, in 2012, after receiving threats from soldiers and 
jihadists because of his sexual preference. Mr. Nahas fled, 
first to Lebanon and then to Turkey, where he applied at the 
United Nations (U.N.) for refugee status. He was granted 
refugee status after a year and has since moved to the United 
States. In August 2015, he testified before the United Nations 
Security Council's summit on LGBT rights in Syria. Mr. Nahas.

  TESTIMONY OF SUBHI NAHAS,\1\ CHAIRMAN OF THE BOARD, SPECTRA 
                            PROJECT

    Mr. Nahas. Chairman Johnson, Ranking Member Carper, and 
Members of the Committee, thank you for offering me the honor 
and the opportunity to be here, today, to share my story in the 
context of the larger events happening around the world--and 
here in the United States.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Nahas appears in the Appendix on 
page 78.
---------------------------------------------------------------------------
    My personal story mirrors the stories of many other LGBT 
individuals. One day, I was heading to the university. An 
organized group of militants accosted and threatened me, solely 
because they perceived me as gay.
    In the local mosque, it had been announced that they would 
cleanse the city of all ``sodomites.'' ISIS had not yet been 
formed, yet militants and the regime targeted all gay men in 
the country. I fled from my home country of Syria in 2012. 
After living in Lebanon for 6 months, I moved to Turkey.
    My history of activism for LGBT rights meant that, even in 
Turkey, I once again found myself in danger. Extremist groups, 
like al-Qaeda and ISIS, were gaining strength and access there. 
Although I was employed for 2 years in a senior position with 
Save the Children International, I was still not safe because 
of my sexual identity.
    A Syrian friend informed me that I had been targeted for 
death. My director at Save the Children helped me register with 
the United Nations High Commissioner for Refugees (UNHCR), to 
be resettled to a safer country.
    Prior to my resettlement, I completed an extremely thorough 
screening process, which included testifying, under oath, in 
front of an officer from the Department of Homeland Security 
(DHS), security checks, medical tests, and a cultural 
orientation. After this 10-month process, I was relocated to 
San Francisco, California.
    In August 2015, a few months after resettlement, I spoke 
before members of the U.N. Security Council about the threats 
to sexual minorities in the Middle East during a historic event 
organized by the United States and Chile. As I stated during 
the meeting and to the press, alongside Ambassador Samantha 
Power, ISIS is simply one of many threats to the LGBT community 
in the Middle East.
    Reports from recent refugees of Syria say that ISIS and 
other groups actively target gay people. It is enough just to 
be perceived as gay by them to be arrested, tortured, or raped. 
Then, this perceived gay person can be thrown off of a building 
to a cheerful crowd that will stone them to death if they are 
not dead.
    While ISIS is viewed, in the public eye, as the most 
notorious group in Syria and Iraq, it may come as a surprise 
that their methodology--when it comes to the treatment of LGBT 
people--is very similar to many other groups, including 
governments, themselves. We know that many groups, including 
ISIS, target and kill gay people in Syria. They just use 
different methods to kill.
    While good fortune has allowed me to begin a new, much 
safer life as a refugee in the United States, the recent event 
in Orlando shows that LGBT people still face huge challenges 
here. The ``New York Times'' reported on June 16, ``Even before 
the shooting rampage at a gay nightclub in Orlando, Florida, 
lesbian, gay, bisexual, and transgender people were already the 
most likely targets of hate crimes in America, according to an 
analysis of data collected by the FBI.''
    Put simply, efforts to discredit the poisonous ideology of 
ISIS and other extremist groups--while extremely important--are 
insufficient to completely erase the threat of anti-LGBT 
violence, either here in this country or abroad. Rather, we 
must also commit to combating homophobia, xenophobia, and 
bigotry in all of its various forms, regardless of the source.
    In order to deal with these issues, I recommend two things:
    One, through the bridges and the convening power unique to 
the United Nations, support actions that promote, not only 
human rights for LGBT persons, but also love, inclusion, 
tolerance, and equality among religions and communities. This 
requires continued U.S. leadership at forums, like the U.N. 
Human Rights Council, and supporting funding for U.N. 
institutions, like the UNHCR. Statements, such as the one 
issued by the U.N. Security Council, on Monday, condemning the 
Orlando attack, are critical. This statement, specifically, 
denounced, for the first time, violence targeting people ``as a 
result of their sexual orientation''--and it received support 
from Russia and Egypt. This will make it more difficult for 
those countries and others to argue that sexual orientation is 
not a recognized international human right.
    Two, we need partnerships across communities that can 
address the serious negative consequences of ISIS's ideology, 
including assisting the communities affected by it. For 
example, I have launched the Spectra Project, which assists 
LGBT refugees in the Middle East and North Africa (MENA) region 
by providing shelter and education, while also promoting, in 
the United States and abroad, a more positive image of LGBT 
people.
    Thank you again for this opportunity.
    Chairman Johnson. Thank you, Mr. Nahas.
    Our final witness is Nadia Murad. Ms. Murad is a Yazidi 
rights activist and one of the thousands of Yazidi women who 
were abducted and enslaved by ISIS. Since her escape, Nadia has 
been outspoken about her experiences to draw attention to the 
ongoing genocide. Earlier this year, the Iraqi Government 
nominated her for the 2016 Nobel Peace Prize.
    Ms. Murad. And, I will mention that Murad, coincidentally, 
is her interpreter. Thank you.

       TESTIMONY OF NADIA MURAD,\1\ HUMAN RIGHTS ACTIVIST

    Ms. Murad [Interpreted.] Mr. Chairman and Senators, I am 
very grateful and very happy to be testifying among you. And, 
thank you for the opportunity.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Murad appears in the Appendix on 
page 80.
---------------------------------------------------------------------------
    The first thing I would like to tell you is that I was 
heartbroken when I witnessed the crimes in Orlando, because, 
for the same reason--for no reason, they were killed and they 
were abused--just the way I was.
    But, I was not surprised by this, because I knew, if ISIS 
was not stopped, they would deliver their crimes everywhere.
    When I was captured, I was 19 years old. I was one of the 
6,000 Yazidi women and children who were taken into captivity.
    This happened in August 2014--more than a year and a half 
ago, now--and ISIS attacked the Yazidis for one reason: because 
they are considered infidels, not ``People of the Book.'' And, 
their interpretation is that the men must be killed and the 
women and the children must be enslaved.
    And, this is what they applied to us. Thousands of men, 
women, and children were killed in the first day of the attack 
in Sinjar. In the hottest days of the summer, more than 100,000 
Yazidis were stranded on the mountain.
    It is true that crimes were committed in Iraq and Syria, 
but what happened to the Yazidis was different. I was one of 
the girls who were enslaved in Mosul. I was one, among the 
thousands of women who were taken to Mosul.
    The first thing they did, in Mosul, after distributing us 
to the fighters, was to take us to the court and have us 
convert by putting our hand on the Quran. It is true that I was 
raped, sold, and abused, but I was lucky. I wish that everyone, 
from the 6,000 women and children, was like me, because girls 
at the age of 9 were raped as well.
    In only 2 hours, in my village, more than 700 men were 
killed. Among them were six of my brothers--and the same day my 
mother was killed, too, for no reason except for having a 
different religion.
    I am not saying that ISIS represents Islam, but ISIS is 
using Islam to commit these crimes. And, this needs to stop as 
an ideology, first. Many people in the area, they had the 
choice to leave when ISIS came, but they were happy to join 
ISIS, when they came.
    There are many things for me to testify about--to tell you 
today--just the time is limited and I do not speak English. I 
wish I could tell you more.
    I would like you to give me one more minute, if possible.
    Chairman Johnson. Honestly, take your time. We want to hear 
the story. Take whatever time it takes.
    Ms. Murad [Interpreted.] This was committed against the 
Yazidis, first--and it is still continuous, now. I delivered 
this message to Egypt and to Kuwait, because what is happening 
has been happening under the name of Islam.
    People there, they had sympathy. And, they said, ``This 
does not represent us.'' But, we have not seen Daesh labeled as 
an infidel group within Islam--not from any Muslim country. 
And, I asked the leader of the Al-Azhar Seminary, in Cairo, to 
say that ISIS is an infidel group within Islam--and he has not 
committed to it yet.
    Many families in Iraq and Syria, when the Yazidi women and 
girls were escaping to these houses, they could have helped 
them. But, no, they seized them and they gave them back to the 
militants.
    Daesh will not give up on their weapons unless we force 
them to give away their weapons. Before all, the Arab countries 
must stop the flow of their citizens into Daesh and prevent 
them from joining Daesh. And, we have to prevent the supplies 
of weapons and money to them. And, we must prevent their oil 
from being sold. And then, we have to fight them, literally, 
after that.
    The Yazidis and all other religious minorities in Iraq, 
they are unable to protect themselves in Iraq and Syria. If a 
country as strong as your country cannot protect the citizens 
in Orlando, in Belgium, or in France, how can a small minority, 
like us, protect ourselves while we are in the heart of the 
land where the radicals are?
    There are many things for me to ask you, because, for 2 
years, we have been waiting--but the list is just too long for 
me to ask you.
    I know what is going on now with the more than 3,200 Yazidi 
women, girls, and children who are still in captivity. When I 
was held, for every hour that passed, I was very happy and 
grateful for that hour if I was not sold and if I was not 
raped. One hour was counted for me--and every hour was counting 
for me. I was freed, but I do not enjoy the feeling of the 
freedom, because those who committed these crimes have not been 
held accountable.
    What happened to the Yazidi people was a genocide. Just the 
first day, thousands were killed. They forced the displacement 
of 80 percent of the Yazidi people, who do not have the joy to 
have a tent to live in. And, they are holding more than 1,000 
Yazidi children, in Syria, to be trained to have the exact same 
ideology that the crimes were committed under. Because of the 
children who were, at the age of nine--who did not enjoy their 
childhood and became slaves--and for the people who drowned in 
the Aegean Sea--and that is also a crime of ISIS, because those 
people escaped because of ISIS. Because thousands of our 
children also have been prevented from going to school--and 
this is all because of them.
    Today, I am saying that small religious minorities, such as 
the Yazidis, Christians, and other minorities, if they are not 
protected, they will be wiped out. We only are seeking peace. 
We want to live with dignity wherever we are.
    As a little girl, I had a dream. And, that dream was to 
open a beauty salon. And, I was prevented from accomplishing 
that dream, and that is the exact same story of thousands of 
children and people like me, who were prevented from continuing 
to pursue their dreams.
    Racism should not be practiced against Islam, but these 
crimes have been committed in the name of Islam--and Muslims 
must be the first ones to resist this. And, I do not like 
anyone to attack an entire religion--for example, the family 
that liberated me, in Mosul. But, at the same time, this is 
being committed under the name of Islam.
    There is so much time that is needed for me to tell my 
entire story, but now I will stop. And, I will give you the 
opportunity to ask any questions.
    Chairman Johnson. Thank you, Ms. Murad. Thank you for your 
courage in coming forward and testifying.
    Let me just ask, did any of your family survive?
    Ms. Murad [Interpreted.] Yes, two of my sisters, three of 
my brothers, and some of my nephews and nieces. I think people 
from my family and my extended family, they were killed or they 
are missing.
    Chairman Johnson. Could you just tell us how you escaped?
    Ms. Murad [Interpreted.] I never believed I would be able 
to escape, because--not me or the other girls--because we were 
held in areas--it was just vastly occupied by ISIS. The first 
couple of days, I tried to escape, because I could not hold on 
anymore with the rape that was committed against me and the 
insult that was committed against me--I could not take it 
anymore. I decided to escape.
    I attempted to escape, but I was not successful. I was 
taken back, and I became a subject of rape by multiple people--
collective rape.
    The second time I attempted to escape, I was successful. 
And, a family in Mosul held me, and they made me an Islamic 
identity document (ID). And, with that ID, I was able to escape 
from Mosul.
    Chairman Johnson. You mentioned there were 3,200 additional 
Yazidi girls and women being held captive. Are they dispersed 
throughout Syria and Iraq at this point in time?
    Ms. Murad [Interpreted.] Yes, they are everywhere, because 
they are not held in a specific place. What is happening is 
that they are being sold--and their places will be changed from 
one place to another.
    Chairman Johnson. By the way, we are holding the 
questioning rounds to 5 minutes, because we have so many 
Members attending this.
    Again, thank you, Ms. Murad.
    I do want to go to Dr. Elgawhary--a real scholar of Islam. 
Can you just explain, is there any way for us to understand--
how did adherents of this barbarity--this violence--how did it 
get to that point? What happened?
    Mr. Elgawhary. So, thank you, Nadia. And, Nadia was saying 
that Daesh--they do not represent Islam, but they use Islam--
and she gave some examples. But, they are even using Islam 
wrong. So, for example, they told her that she had to go to the 
court and she had to swear on the Quran to become a Muslim. 
But, that is not how you become a Muslim. You become a Muslim 
by testifying, saying the testification of faith. So, even 
small, mundane things they do not understand.
    I just was so moved by what she said. And, it reminded me 
that the prophetic text--the Prophet Muhammad, peace be upon 
him--he said, ``Fear the supplication of the oppressed because 
there is no veil between that supplication and the Lord.'' And, 
he never mentioned that it is a Muslim or not a Muslim. And, he 
said, ``I am the protector of the religious''--``I am the 
defender of the religious minority on the Day of Judgment 
against the Muslim that aggresses against the religious 
minority.''
    It is a big question that you asked, Senator Johnson, but, 
basically, the way I see it is that they are taking certain 
concepts--or certain phrases--and adding to it and 
appropriating to it new meaning that does not exist. For 
example, Nadia mentioned that one of the things they told her 
was that Yazidis do not count as the ``People of the Book''--
that they are apostates. But, the concept of the ``People of 
the Book,'' in Islamic law, is not proscriptive. It is 
descriptive. It describes an organized religion that has a 
legal code, that has a book--meaning sort of sacred text--and 
so on and so forth. And, as Muslims expanded eastward out of 
Arabia, they encountered Yazidis. These are communities that 
have existed with Muslims--and co-existed with Muslims--since 
the first generation of Islam, up until now.
    And, all of the other Dharmic faiths--Hinduism, Buddhism, 
Jainism, Shintoism, and Daoism--all of these religions--Muslim 
scholars understood these as ``People of the Book,'' because it 
is a description. It is not proscriptive. So, these differences 
are how they misunderstand certain things.
    The basic axis around which this thinking exists is this 
concept of takfirism, or declaring people to be apostates. I am 
an apostate--according to them--so, therefore, they can aggress 
against me. Why am I an apostate? Because I do not agree with 
what they agree on, I do not pledge allegiance to them, and so 
on and so forth. And, with this tactic, they go on and on and 
on.
    But, one last thing. Nadia mentioned, when she asked the 
sheikh of Al-Azhar, Dr. Ahmed el-Tayeb, in Cairo--why does the 
senior leadership of Sunni Islam not declare ISIS as non-
Islamic--because I know this is a common question that I get--
our understanding of organizations like ISIS is that it is even 
worse than apostasy, because there is no capital punishment for 
apostasy. The Prophet said that these people are khawarij--they 
are outliers. And, in all of his mercy, all of his love, and 
all of his beautiful teachings, he said, ``Khawarij [foreign 
language].'' He said that the khawarij are the ``dogs of 
hellfire.'' And, he said, ``[foreign language],'' or ``Glad 
tidings to those that fight them and kill them and are killed 
in the process of killing them,'' about the khawarij--about the 
outliers. So, it is even worse--it is even more of a derogatory 
statement--a derogatory label--than being an apostate. And, it 
is an obligation on all of us, in the family of Islam, to do 
what we can to combat it with whatever tools that we have at 
our disposal.
    Chairman Johnson. Just one very quick question, for either 
you or Mr. Hassan. Of the Muslim population--1.4 billion to 1.6 
billion people--what percent of that population adheres to this 
barbaric ideology? Do you have any sense of that, whatsoever?
    Mr. Hassan. For me?
    Chairman Johnson. Whoever has an estimate.
    Mr. Hassan. ISIS does not need a lot of numbers. We have 
seen this, recently, when they start being--like, when there is 
a force that pushes them in a certain area, they can hold 
territory with like 200 people. I think they are a small 
minority. Even within the Syrian rebel groups, they are still a 
smaller group than others. But, I think, because of the sheer 
violence and brutality, they deter people--and they use the 
word [foreign language] in their literature, which means 
deterrence--with extreme violence and brutality. So, when they 
kill one person, they make sure that 100 or 1,000 people see 
that person being killed.
    Chairman Johnson. Senator Carper.
    Senator Carper. Thank you. Did you say we have 5 minutes?
    Chairman Johnson. Yes, we were trying to keep it at 5 
minutes. There are so many people here.
    Senator Carper. OK. Again, our thanks to each one of you 
for joining us today, and for sharing with us some parts of 
your life that are not easily shared. And, we are deeply 
grateful to each of you, but especially to you, Nadia. Thank 
you.
    Here, in the United States, we are, as you probably know, 
people of many different religions. We are Protestant, we are 
Catholic, we are Jewish, we are Muslim, we are Hindu, we are 
Buddhist, and we are other religions as well. And, one of the 
reasons why our country was established was because of the 
concept and the nature of freedom of religion--people yearning, 
not just to be free, but to be free to worship God as they saw 
fit.
    There are some people who take the Bible--most people in 
America are probably Protestant and Catholic--most, but, 
certainly, not all--but some people take verses of Scripture 
out of the Bible and they twist them into things--in ways that 
are not really meant to be done. And, there are people in our 
own faith who bastardize our faith--they ``cherry-pick'' our 
faith. A great example is, ``An eye for an eye, a tooth for a 
tooth.'' People take that as an admonition to go out and wreak 
vengeance on people that have wronged them. But, that same 
verse of Scripture goes on to say, `` `Revenge is mine,' sayeth 
the Lord.'' `` `Revenge is mine,' sayeth the Lord.''
    There is another verse in Scripture that says, ``When I was 
a stranger in your land, did you take me in? '' And, we have 
some people in this country--some political leaders--I do not 
know that they have read Matthew 25--whatever their religion 
is--but there are some people in this country who have argued 
that the United States needs to stop accepting, not just Syrian 
refugees, but, in some cases, all Muslim refugees. And, in the 
case of the Syrian refugees that they would not allow us to 
accept, that included people who are not Muslim. They could be 
of different faiths. They could be a Christian or they could be 
a Jew--a variety of religions.
    And, I would just ask--starting with you, Mr. Elgawhary--I 
would start with you and just to ask, what are your opinions 
about a ban on, we will say, all Syrian refugees--or even all 
Muslim refugees? And, how would such a ban affect the ability, 
in this country, to counter ISIS propaganda and ideology? Would 
you go first?
    Mr. Elgawhary. I am not really trained as a politician, 
so----
    Senator Carper. Neither are we. [Laughter.]
    We are untrained.
    Mr. Elgawhary. At the risk of saying or making a political 
statement, I mean--I think, as an American, I understand----
    Senator Carper. My question is: What are your thoughts 
about how a ban on all Syrian refugees--or really all Muslim 
refugees--how does that affect our ability as a country to 
counter ISIS propaganda and ideology? That is my question.
    Mr. Elgawhary. Well, I was going to say that I think, as I 
understand our Nation, I think it is un-American not to accept 
refugees. And, we have, I think, the legal, political, and, 
more importantly, moral authority to take in the people that we 
can. And, this is what this ``E Pluribus Unum''--this is what 
makes our Nation great. And, I think that, from a social 
cohesion standpoint, societies that are more plural are 
stronger.
    I think that, by bringing in refugees, we will be able to 
understand the problem more and see how we can help them more. 
But, I think some sort of form of isolationism--or some sort of 
rejection--will only increase the problem and make it fester 
more.
    Senator Carper. Good. Thank you.
    Other witnesses, please--same question.
    Mr. Hassan. Sure. I can say two things.
    The first one is that, I try to keep in touch with people 
who left Syria--and they now live in Germany and other 
countries. And, I have seen how positive the message that 
European countries--and the case of here--only recently here--
that they accepted them--and that was a positive sense. We only 
hear good things from refugees. They praise the Germans and how 
hospitable they are, and so on and so forth.
    And, the second thing that we have to recognize is--I 
think, especially for the United States--that the thousands of 
Syrian refugees, who left Syria and are in Turkey and Europe or 
are in the United States, have been instrumental in the fight 
against ISIS. They provide intelligence, information, mapping, 
and guidance. And, ISIS operates in these areas that--in 
Eastern Syria, Northeastern Syria, and Northwestern Iraq--and 
these people have been affected the most by violence--they were 
driven out. There is a reason why they were helpful in the 
fight against ISIS.
    Senator Carper. Thank you.
    Anyone else? Mr. Nahas, just very briefly.
    Mr. Nahas. OK. From my experience, as a refugee, myself--I 
went through the process and I would say that it is very highly 
unlikely for the process to let in any terrorists that try to 
come. It is a highly intense process that includes security 
checks, background checks, a waiting period of at least one 
year, and eyewitnesses. They ask you a lot of personal 
questions. It is highly unlikely that a terrorist, or a person 
who believes in these ideologies, would be able to pass 
through.
    Senator Carper. All right. Thank you.
    Nadia, could you briefly respond to my question? Very 
briefly, please.
    Ms. Murad [Interpreted.] I would like, first, to say that 
every country has the right to protect itself and to protect 
its borders and its laws. But, the people who are escaping from 
religious discrimination and genocide, they should not face 
closed doors before them.
    I would just like to say that, if the terrorists want to go 
someplace, they can go--regardless of the process. And, some of 
them have already immigrated.
    Senator Carper. I think we have a moral imperative here. We 
face, in this country, a moral imperative to be true to those 
words that are written on the Statue of Liberty. We have a 
moral imperative where they happen to be--whatever faith, we 
have a moral imperative to Matthew 25: When you are a stranger 
in our land that we take you in. But, we also have a moral 
imperative to the people who live here and want to live in 
safety and be able to live to be old and have kids and 
grandchildren.
    And so, I think our challenge here is to make sure that, 
while we need to be true to our faith in allowing people who 
are in distress, on the run, and haunted by their memories--we 
need to be welcoming to them. We also, at the same time, have 
to be mindful of the need to protect our safety. Sometimes they 
are in conflict with one another.
    The last thing I want to say--and, Dr. Elgawhary, you can 
comment on this later, but my understanding is that every 
religion--just about every religion, including Islam--has a 
Golden Rule: Treat other people the way we want to be treated. 
Is that true? And, is that not also true of Islam?
    Mr. Elgawhary. Yes, it is.
    Senator Carper. My view is, if all of us would sort of 
abide by that, since that is part of the fabric of all of our 
religions, we would all be a whole lot better off on this 
planet.
    Thank you.
    Chairman Johnson. Thank you, Senator Carper. So, we equally 
went over the time.
    Now, I think we need to keep it to 5 minutes in order to be 
respectful of all of the people here. So, Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. I want to thank the Chairman. I want to 
thank all of you for being here. In particular, Mr. Nahas and 
Ms. Murad, we are so sorry for what you have gone through. And, 
your courage in coming forward here, today, is very important, 
so that we can hear what you have endured--and it is horrific.
    But, I wanted to follow up, Ms. Murad, on the issue that 
actually you raised--and I would like to have Dr. Elgawhary 
comment on it. And, that is, Doctor, you said that what Daesh 
is doing is beyond apostate. You have described it as the 
``dogs of hellfire.'' And, I would agree with that description.
    But, what I want to understand is--to what Ms. Murad asked, 
as we look at how the reaction should be from--for example, I 
think she may have identified the Al-Azhar Seminary in Cairo, 
which I believe you studied at, and which is a very important 
seminary in Islam. Do you believe that leaders in this 
seminary, and other leaders in the Muslim world, have described 
and called out Daesh in the way that you have described it, 
today--as forcefully as they should?
    Mr. Elgawhary. Thank you, Senator. So, just a correction. 
Those are not my words. I was quoting Prophet Muhammad. Prophet 
Muhammad said that the outliers are the dogs of hellfire.
    Senator Ayotte. Right, but, I think, to ask--what I want to 
understand is--to really answer her question. Do you think that 
leaders, in a position to influence, for what Islam truly 
stands for, do you think that they have been forceful enough in 
calling out--whether you call them ``dogs of hellfire'' or 
``apostate''--however, how Daesh is warping--as you have 
testified today--your religion?
    Mr. Elgawhary. So, I think there is--yes and no. I think 
there are definitely those who are very outspoken. One scholar 
that comes to mind, who we have worked with, is Shaykh Muhammad 
Yaqubi, himself a Syrian refugee, for all intents and 
purposes--now living in Morocco. And, he has written a very 
extensive fatwa, a nonbinding religious opinion, in English, 
against ISIS. And, he actually makes the argument, which is a 
valid argument, that Daesh or ISIS are, in fact, outside of the 
folds of Islam.
    But, if you have ever worked with scholars and academics, 
they are a little bit slow on the uptake and not very good in 
front of the camera. And, I think that one of the----
    Senator Ayotte. We need leaders to----
    Mr. Elgawhary. Well, that is one of the problems, I think--
one of the deficiencies--one of the weak points of Al-Azhar is 
its communication capacity. In a former life, I actually helped 
establish the Office of Communications for the Grand Mufti of 
Egypt, between 2003 and 2007, before I went to Princeton--and 
that was a coup. I mean, when I asked them, ``How do you deal 
with journalism?'', they said, ``Oh, we call the police and we 
arrest them.'' I said, ``No, no, no. You have to work with the 
media, because, if you do not, what you are trying to say--what 
the Mufti is trying to say--is not going to get out there.''
    So, I think there is a lot of training that can happen to 
help that. But, I agree with you. More needs to be done, and 
more voices need to be heard.
    Senator Ayotte. Thank you.
    Ms. Murad, I wanted to say that I believe that Daesh has 
engaged in war crimes, crimes against humanity, and genocide. 
How important do you believe it is--you have put in your 
written testimony, today, and you have also told us--how 
important is it to formally recognize Daesh's actions as 
genocide? And, I mean, with reference to the Yazidis and what 
you have told us today about how they are treating the Yazidis.
    Ms. Murad [Interpreted.] It is very important for us that 
what happened to us be acknowledged as a genocide. On the 16th 
of this month--just a few days ago--when the U.N. acknowledged 
the genocide--for the Yazidis, who have been hopeless for the 
past 2 years, this was the first time they started having some 
hope.
    I would like these crimes to be legally recognized by you 
and I would like to be acknowledged. I would like you to look 
into the crimes--the things that I have talked about today and 
the things that Daesh has done--not secretly. They, publicly, 
have said that they will do it--and they did it. And, I would 
like you to look at these crimes and this evidence.
    Senator Ayotte. I want to thank all of you for being here. 
I would just say that there is a Senate resolution, Resolution 
340, which would call this for what it is--a genocide. And, I 
hope that we can come together and declare this a genocide. I 
would like us, as a Congress, to come together and declare this 
for what it is.
    Thank you.
    Chairman Johnson. Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Mr. Chairman. I want to thank 
all of you for your testimonies.
    Dr. Elgawhary, I came in toward the last half of your 
comments, but, one of the things you said, right at the very 
end, was--and I just want you to confirm this--that ISIL has 
nothing to do with religion. Did I hear you right?
    Mr. Elgawhary. ISIS has nothing to do with Islam is what I 
believe I said.
    Senator Tester. OK. So tell me the difference really 
quickly.
    Mr. Elgawhary. I began by saying that normative Islam, in 
its Sunni and Shia expressions, is defined by an interpretive 
methodology.
    Senator Tester. OK.
    Mr. Elgawhary. And, I walked through a little bit about the 
high level of what that is.
    Senator Tester. Right.
    Mr. Elgawhary. And, that the texts that we have--what we 
believe to be divine texts--live in time. And, there is a 
discursive tradition in how we interpret these verses and these 
injunctions for the moment that we live in. But, ISIS, they 
have no--they are unlettered. They are completely unlettered in 
the religion and the fundamentals of the religion. Nor do they 
have an interpretive methodology. So, what they conclude is 
based on their own whims and desires, from what they are 
reading prima facie--without understanding the text, itself.
    Senator Tester. OK, gotcha. So, I keep coming back to why 
these guys exist. There is absolutely a criminal element, 
because we saw that in Paris and we saw it in Brussels. The 
people belong to ISIL. There are also doctors, engineers, and 
other well-educated folks that are a part of it that, quite 
frankly, should not be a part of a twisted ideology, such as 
this.
    Could you tell me what about their ideology appeals to that 
broad of a base, from crooks to professionals and everything in 
between?
    Mr. Elgawhary. I think, maybe, Hassan will know more, 
because he has actually interviewed some of them. But, I mean, 
intellectually or academically, I think that the first thing I 
would point out is that I do not know if they, necessarily, 
believe in what ISIS is saying or if they are coerced to 
believe in what ISIS is saying, or what they are holding to be 
true. I also think that----
    Senator Tester. Coerced by force?
    Mr. Elgawhary. Yes, coerced by them--by ISIL--and----
    Senator Tester. So either you believe this or you are going 
to die?
    Mr. Elgawhary. Yes, exactly.
    Senator Tester. That kind of coercion.
    Mr. Elgawhary. As we heard from Nadia, for example--and 
from other stories that have come out from ISIL-controlled 
areas.
    Senator Tester. OK.
    Mr. Elgawhary. I also think that there is a spectrum of 
extremist thought within Islam.
    Senator Tester. OK.
    Mr. Elgawhary. And, I think that it can start as something 
sort of innocuous, but there is something wrong with that way 
of thinking--and it can slide. And, I think that, when they 
find somebody that sort of looks like they are from central 
casting, they are able to pull them to that side.
    Senator Tester. There are a lot of folks in that group, it 
appears to me, anyway.
    Do you want to comment, very briefly, on that--on what 
makes it--or just agree with the doctor, if he is correct?
    Mr. Hassan. I mentioned in my testimony, before his, that 
the people who believe in the sort of ideology that ISIS 
believes in--as in, they really believe in it----
    Senator Tester. Right.
    Mr. Hassan. There are only two categories: people who are 
young zealots or people who are indoctrinated by another 
category, which is of longstanding radicals that believe in 
takfirism, which is declaring fellow Muslims as infidels--as 
apostates--based on specific criteria that they have. They rely 
on books like--there are two books that come to mind. I do not 
want to get into too much detail there, but there is a book, 
for example, that is 1,000 pages of a man who, when he appeared 
on TV and he explained his methodology of fatwa, he said that 
fatwa should not be done in the same way that Muslim clerics 
have done it over the centuries.
    Senator Tester. All right.
    Mr. Hassan. That I, as a person, can declare you as a 
fellow Muslim or as an apostate, based on my impression of 
you--if you work with the West against Muslims, if you are an 
agent to a certain government, and so on and so forth.
    Senator Tester. OK.
    Mr. Hassan. So their criteria are very post-modernist in a 
way.
    Senator Tester. OK. Back to you, Dr. Tarek. So, are there 
statements or actions the United States has taken that might 
encourage people to be a part of ISIL?
    Mr. Hassan. Me?
    Senator Tester. No. Dr. Tarek.
    Mr. Elgawhary. To be honest, that is a tough question for 
me to answer. I think that the rhetoric that comes out of ISIL 
sometimes makes us think that, if it were not for the U.S. 
invasion in Iraq or if it were not for the U.S. policy of doing 
this or the U.S. policy of doing that--but, the fact of the 
matter is, one can make that argument for any other country. 
One could make that argument for any other regional player in 
that region. And, politics is all based on interest--
geopolitical interest--and things like that. So, I do not think 
that that is necessarily fair. I think, because America is so 
dominant in the world and so out there, it is just an easy 
target. And, it is this easy, ``Oh, if America just stopped 
doing this, then we would stop doing that.''
    But, that is not going to happen. We know that. If we stop 
doing whatever they say, they are not going to change.
    Senator Tester. All right. Well, my time is up. I want to 
thank you all for your testimonies. I will submit questions for 
the record, if appropriate, Mr. Chairman.
    Chairman Johnson. It will be.
    Senator Tester. Thank you.
    Chairman Johnson. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you so much, Mr. Chairman. And, 
thank you all for such thoughtful comments and for such 
thoughtful words as well as for such courage and bravery--
especially our last two witnesses. I think everyone here, who 
frequently spends a lot of time on their smart phones during 
the testimonies, sat and really listened. And, really, you 
moved us all. Thank you so much for your courage and for the 
fact that you are survivors--and, as survivors, you are willing 
to testify to the horror and to the imperative that we all, as 
good people, have to engage.
    But, I want to, for a minute, turn to our first two 
witnesses and engage in a discussion about the message and the 
messengers. Doctor, I was fascinated by the work that you have 
done, basically, parsing kind of the perversion and responding 
to the perversion of Islam that is being done by these radical 
groups. And, obviously, having met with people who have been 
radicalized, you have a pretty good sense of what messages we 
could deliver that would actually make a difference--especially 
in this country, where, now, I think our greatest threat is the 
radicalization of young men and women--or American citizens. We 
have seen that now twice.
    And so, there are two parts of a message. It is the right 
message, and then, the right messenger--and I am just going to 
make a couple of points. I want both of you to respond to what 
you think the right message is and who the right messenger is. 
And, I want to know if you are familiar with what the 
Department of Homeland Security is doing, today, to try and 
provide a countermessage--and to offer any advice to us, as we 
review that, in our oversight role. And, that will be the last 
question I ask. And, I would ask that you both split up your 
time.
    Mr. Hassan. Thank you. In terms of messaging, I think it is 
different, because it is complicated--because ISIS should be 
treated as two organizations in one. There is the local one, 
which operates on the ground in Syria, Iraq, and elsewhere--
like, in Libya and elsewhere--and they have their own 
messaging, which is usually based on sectarianism. And, there 
is the international one, which is very close to al-Qaeda. 
They, in fact, are trying to recollect and regather the 
dispersed networks of al-Qaeda that were, basically, dispersed 
after the terrorist attacks of 9/11 and the campaign against 
it. So, they are trying very hard to do that in Europe, in the 
United States, and elsewhere--but also in North Africa. So, the 
messaging should be different, because they are different 
organizations.
    On the ground and internationally, there is this danger 
that what happens--its appeal on the ground has become an 
international appeal. Why? Because it presented itself with 
some sort of an idea that everyone is fighting and the enemies 
of this organization are the West, Iran, or something else--
that this organization stands for something.
    So, the most effective messaging against this is to not 
talk too much about only the victims of ISIS outside of the 
group that it claims to represent but, rather, what is really 
happening on the ground--which is that, on a daily basis, the 
group kills fellow Sunnis--people that it claims to represent--
and we do not see that in media.
    For example, next to my village, I mentioned that they 
killed 700 people. Only the ``Washington Post's'' Liz Sly did 
the story about that, and, at the time, it was the single most 
horrific massacre. They killed a lot of people, but they killed 
700 people in a matter of days. That needs to be the message--
that, look, this is not an organization--not a sectarian 
organization--not an organization that represents a sect--or it 
is not just Islam versus the West. It is a crazy organization--
an extremist organization that recasts itself in religious 
terms that the people of that faith rejected. And, that needs 
to be hammered again and again.
    Senator Heitkamp. Doctor?
    Mr. Elgawhary. As far as messaging, I think there needs to 
be an unequivocal counternarrative from Muslim religious 
leaders--no wishy-washy stuff and no statements, saying, 
``Well, maybe there are five opinions on that.'' Yes or no and 
black or white. There is right Islam and there is wrong Islam. 
Period.
    What I have been trying to do, in our organization--in 
WORDE--is, I conduct a monthly traditional class we call 
``halaqa.'' And, I try to take one of the concepts that 
organizations like ISIL uphold and I try to deconstruct it in a 
very detailed way. And, my goal--obviously, the audience is, 
primarily, Muslim--but my goal is for young Muslim people to 
understand why it is wrong and why there is a perversion in 
their thinking--not that I am saying that I am the example, but 
I think that kind of effort is what we need more of. And, I 
think that the English language is actually very important in 
this regard, because a lot of the media that we have been 
seeing coming out of ISIL is in English and it appeals. So, I 
think that is very important.
    As far as recommendations, some of the things that come to 
mind--for example, in our home county of Montgomery County in 
Maryland, we have noticed a drastic increase in bullying toward 
Muslim students in the Montgomery County Public School (MCPS) 
system. And, I think that anti-bullying work is very important, 
so that our children feel safe in schools, so that they are not 
pushed to the side, and so they are not isolated.
    Also, in our organization, we work with helping refugees to 
resettle. And, I think those type of services are very 
important, so that people, like Subhi, Nadia, and others, who 
are coming as refugees, have something to plug into--so they 
are not left to drift in the wind.
    So, those are some of the things--and, sorry, one last 
thing. I think that media training for Muslim leaders abroad is 
also very important. And, I think there are a lot of good 
people--there are a lot of--I cannot remember who we were 
talking about, earlier. There are a lot of good leaders that 
are making the right argument, but they need to know how--you 
cannot write a 40-page legal opinion and expect that to be 
trending on Twitter. It is just not going to happen. And, when 
I told my teachers that, they were like, ``Well, what we are 
seeing is the dumbed down version of what our teachers said.'' 
I said, ``OK. We have to stop the humility thing and we have to 
be smart about how we inject this message into the media, 
because there is a certain way that media works.'' So, media 
training, I think, is very important--social media, that kind 
of thing--for leaders abroad.
    Chairman Johnson. Thank you, Senator Heitkamp.
    Again, I want to make sure everybody gets to ask questions, 
so I will ask everybody to be mindful of the 5-minute limit. 
Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman. And, thank you to 
our witnesses here, today. Ms. Murad and Mr. Nahas, thank you 
both for your very compelling testimonies and for your journeys 
here, to this country. It is very important, as we discuss 
refugees and folks, like yourselves, who have been fleeing 
intense persecution and terror, that people see the human faces 
of the refugees that are in this country. Your presence here, 
today, is important and, hopefully, many people will see that 
and be as moved as I know everybody on this panel was moved by 
your testimony. So, thank you for your courage to be here, 
today.
    Dr. Elgawhary, I would like you to respond to what seems to 
be somewhat of a debate back and forth that we are hearing, in 
the political realm, now, as to whether or not we should call 
ISIS ``radical Islam.'' When you hear someone call it ``radical 
Islam,'' do you think that is an accurate description of what 
we are seeing with ISIS?
    Mr. Elgawhary. I seem to be intent on getting all of the 
difficult questions.
    One of the things they taught us at seminary is that there 
is no--I am just trying to translate, in my head, on the fly. 
There is nothing wrong with labels, because, a lot of times, we 
get stuck on labels: ``Why are you saying this?'' or ``Why are 
you calling it that?'' And, I think that labels are only what 
their definition is.
    When somebody says--I use that term, ``radical Islam,'' and 
I know a lot of people in my community get upset. But, what I 
mean by it is, people that look Muslim, say they are Muslim, 
quote the Quran, and do horrible things. What are we going to 
call them? They are terrorists for sure. But, they are very 
different than a neo-Nazi group, for example.
    I, personally, do not have a problem with that. When people 
say that--whether it is Congress, the White House, or in the 
media--I understand what is meant.
    However, I fear that that can very easily slide into any 
form of religiosity from a Muslim is a form of radical Islam. 
And, that is, I think, where the fear is--that we limit it to 
what it is supposed to define.
    Senator Peters. Mr. Hassan.
    Mr. Hassan. That is a good question, because, personally, 
when I was in the United Arab Emirates (UAE) last year, I was 
an advocate of using these terms and on pressing clerics to 
speak up against this organization. I remember the late Saudi 
king, who died 2 years ago, admonished clerics--the high 
clerics--for the first time, in public. And, he said, ``I feel 
you are lazy. You are not speaking up against ISIS,'' when it 
came out.
    But, I think, when I moved to the United Kingdom (U.K.), 
last year, I felt that there is a question of the messenger--
who says this term and why. And, it is important to keep this 
in mind. ISIS wants to divide--this is the thing that ISIS did 
in the Middle East and it is trying to do it elsewhere. It 
wants to polarize its enemies and it wants to polarize the 
society under its control. And, they want to divide their 
enemies. And, they have succeeded, in the Middle East, and they 
are, probably, succeeding here by getting people busy talking 
about what to call it and what not to call it.
    I think what is clear is that this organization, like 
Doctor Elgawhary said, has declared war on Islam--this is how 
it should be seen. It is a problem within the Islamic world, 
and it needs to be dealt with there.
    And, here, what can be done is to help Muslims fight this 
organization.
    Senator Peters. I appreciate that. The issue that we face 
here, in the United States, in dealing with this threat, deals 
with lone-wolf folks, who may be inspired by what they see in 
the ideology. Is it safe to say that the folks that may be 
inspired by this are folks who, really, have very little 
understanding of Islam? Is there a correlation there? And, does 
that have something to do with this recent shooter that was 
claiming allegiance, I believe, to ISIS, but also, at some 
point, to Hezbollah--and how that may be inconsistent? If you 
could kind of address what may be going on in the minds of lone 
wolves as well as the things that we should be considering, in 
terms of how we respond to this phenomenon?
    Mr. Elgawhary. So, I would say that, absolutely, people 
that self-radicalize--just like the radicals that we have been 
speaking about this morning--they have very little to no 
understanding of the religion, whatsoever. And, that is really 
the danger. And, part of that is that they have no training--
they have no living teacher that they can sit with or that they 
can ask questions to, not allowing this discursive, 
interpretive tradition, which I described earlier, to take 
place.
    So, I think that that is definitely a fear--people that are 
surfing online, finding a lecture here, finding a statement 
there, cutting and pasting these together, formulating some 
kind of a conclusion, and acting on it--I definitely think it 
is a problem. And, I think that more instruction--more 
religious literacy for Muslims will help, in that regard.
    Senator Peters. OK. Thank you.
    Chairman Johnson. Senator Baldwin.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you, Mr. Chairman. And, I want to 
add my words of appreciation and thanks to our panel. These 
were very powerful testimonies. Thank you for being here.
    I know the hearing is about the ideology of ISIS--of Daesh. 
And yet, it was called in the wake of a horrible tragedy, in 
Orlando, that was, at once, a terrorist-inspired attack and 
also a hate crime--in this case, against members of the LGBT 
community. It was also ``Latin Night'' at the club, and it is 
unclear whether that contributed to the targeting of the club 
on that particular night.
    Mr. Nahas, when you were testifying, you shared with us 
that attacks against LGBT Syrians preceded the formation of 
ISIL--that it was called for, tolerated by, or perpetrated by 
the regime as well as militants that opposed the regime in 
Syria--that they, too, perpetrated violence against LGBT 
Syrians.
    In the United States, violence, bullying, intimidation, and 
discrimination against members of the LGBT community has a long 
history also. And, in the early days, you could, certainly, 
argue that it was sanctioned, at one point in our Nation's 
history, by the government also--but things have changed. And, 
I want to just draw attention to something you highlighted, in 
your testimony, about the U.N. Security Council acting very 
recently to recognize that LGBT rights are human rights--a 
first in that international forum. You highlighted it as 
something that is very important in moving forward.
    I guess, I want to ask, in terms of your proposals--your 
recommendations to this Committee and to others--how important 
is it for governments, for authorities, and for regimes to say 
that LGBT rights are human rights? And, how dangerous is the 
absence of that--the silence to that?
    Mr. Nahas. Thank you, Senator, for this important question. 
From my own experience, growing up as a gay man in Syria, I 
knew, at an early age, that the government has laws against us 
and that my existence was not legal. So, I was not allowed to 
say it out loud. I was not allowed to be out in the open. It 
was punishable by up to 3 years in prison--this is the least--
and, at worst, you could be persecuted by your own community 
members. So, it is very important for us to put the words out 
there--to say to governments--and to hold them accountable--to 
tell them that LGBT rights are human rights and they are not--
just sexual rights. In my understanding, my community 
traditions say that LGBT rights are only sexual rights--they do 
not relate at all to human rights. And, to make this message 
clear to governments and to communities, it is very important 
to at least start to elevate discussions of the problems that I 
witnessed, in my country, where LGBT people were being bullied 
all of the time, persecuted, harassed in the street, and even 
verbally and physically abused. We could not go anywhere. We 
could not go to the police and we could not tell our families, 
because, if we did, they would have persecuted us more--because 
they would always say, ``You have to man up and defend 
yourself. This is not an issue that you can talk about.''
    So, we need to use international platforms, like the U.N., 
to tell governments that these rights should be properly 
addressed. That delivers a very strong message.
    Senator Baldwin. Thank you. I wanted to follow up--oh, I am 
out of time.
    Chairman Johnson. You can ask it as a question for the 
record.
    Senator Baldwin. So, a question for the record then. 
Senator Peters was asking questions about self-radicalization 
and lone wolves. And, I think, in the case of Orlando, it is 
not clear how deep of an understanding the perpetrator--the 
gunman--had with ISIL. He appeared to have online relationships 
with various terrorist organizations. But, I guess, I want to 
ask an even broader question about self-radicalization, 
because, we have seen, in recent instances of mass gun 
violence, in the United States, people that are self-
radicalized, but that are inspired by different types of hatred 
of minority religions--as we saw in Wisconsin, Mr. Chairman, 
when a gunman entered the Sikh temple in Oak Creek and as we 
saw in Charleston, South Carolina, which was motivated by 
racial hatred.
    What can we learn about self-radicalization by studying 
those who have been self-radicalized by ISIL to deal with the 
self-radicalization of people who hold different types of 
hatred?
    Chairman Johnson. And, the witnesses can answer that in 
their written responses.
    Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you, Mr. Chairman. Thank you all 
for being here. I appreciate your bravery in coming forward and 
your courage to be able to speak out. These are important days, 
and we need to be able to hear clear, articulate voices. And, I 
thank you for bringing that.
    Mr. Hassan, let me ask you, what is the end goal for ISIS? 
What do they see on the horizon? They are fighting for what? 
And, when will they know they have achieved it?
    Mr. Hassan. Well, they say they want a caliphate that 
dominates the world. This is their stated mission. I think 
their realistic objectives are to control Syria and Iraq, to 
expand in the region, and to become this leader of jihad--and 
global jihad. That is why they spent so much effort targeting 
al-Qaeda. They are more critical of al-Qaeda than, probably, 
the other ones, because they see it as their competitor and 
their rival.
    So, their goal is regional dominance, but, obviously, they 
want to expand in the West and elsewhere.
    Senator Lankford. So, you talk about the regional 
dominance, yet they are trying to motivate people in Western 
countries--whether that be in Europe, the United States, 
Australia, or wherever it may be--to be able to fight and 
attack in those locations as well. So, why try to motivate 
people in Australia, in the United States, or in Europe to be 
able to fight for them, if the goal is the caliphate there?
    Mr. Hassan. Well, I mean, listen to them and how they talk, 
reading their books--the books that they say that they read--
the pamphlets and so on, they talk about the war, today. And, 
this is important, I think, for the anti-ISIS campaign, today. 
Because there is this tendency to think about tactical defeat 
as strategic defeat against ISIS, and that is not--though ISIS 
presents itself as--it is a long-term project. They talk about 
``nikaya,'' which is a war of attrition, as a tactic. So, they 
want to exhaust the West and exhaust everyone else. They think, 
``10 years ago, we were fighting the Americans--the Americans 
were in Iraq and they had the appetite to fight us. Ten years 
later, President Obama had little appetite--or less appetite--
to fight us. In 10 years' time, that will be even less.''
    They have a core--and that is the most important part of 
ISIS--a core that mostly consists of security officials. These 
are the most dangerous people. Many of them are former members 
of Saddam Hussein's Mukhabarat, or security apparatus. They 
shape the organization, in terms of how it operates, how it 
works, and how it ensures its survival.
    So, I think they have a goal. That core will not go away. 
You can defeat the organization--defeat the members who joined 
it 2 years and so on. But, they think of their long-term 
strategy as a strategy of ``nikaya,'' or a war of attrition.
    Senator Lankford. OK. So, if you go back 15 years ago or 10 
years ago, the United States was talking--and challenging--and 
the West was challenging leadership, in Islam, to call out al-
Qaeda, which was happening, and to say that it was not 
consistent. Now, it is a challenge toward ISIS, Al-Nusra Front, 
or whoever may be in it--and to say that it does not line up 
with theology. We see this springing up in multiple areas 
around the world. You used the term that I think is very 
familiar to us: ``radical Islam''--is twisting off. But, it is 
not just around ISIS. It is around, mostly, ISIS, today, but it 
could be Al-Nusra Front, it could be al-Qaeda, and it could be 
others. It is a more broad system. So, is it a ``confront 
ISIS'' or is it a ``confront a larger set of teachings that is 
separate from traditional Islam? ''
    Mr. Hassan. Well, that is the difference between defeating 
the organization, tactically--you can launch a very effective 
military campaign against it and you could defeat it. You can 
expel it from Mosul, Raqqa, and Fallujah. But, the 
organization's appeal and the spectrum--the broader appeal of 
groups like it--like-minded groups, like al-Qaeda and other 
Islamist groups that believe in violence as a strategic goal, 
rather than violence just because they are pushed to violence.
    Senator Lankford. Does the worldwide movement of ISIS 
diminish if they do not have a functioning caliphate in Syria 
and in Iraq?
    Mr. Hassan. It will. But, the fear--I think we have reached 
the point, today, where what has happened on the ground in Iraq 
and Syria does not so much affect the international appeal of 
ISIS. This is, I think, directly because of the fact that the 
campaign against ISIS has not been done properly. Using the 
wrong forces to fight ISIS, in towns where these organizations 
are viewed suspiciously, is a disastrous campaign that even the 
Department of State (DOS) officials complained about. They 
said, in that letter that they sent--a document saying that--
for example, allowing the People's Protection Units (YPG), 
which is an organization affiliated with the Kurdistan Workers' 
Party (PKK), in Turkey, which is designated, by the United 
States, as a terrorist organization--using that organization to 
fight ISIS--another terrorist organization--in Sunni Arab 
areas--that is just wrong.
    So, I think the campaign, today, is allowing ISIS to 
convert territorial losses into legitimacy in that region, 
specifically. And, that is why I have been warning time and 
again that the campaign is not being done properly. It is only 
making ISIS stronger.
    Senator Lankford. Thank you.
    Chairman Johnson. Senator Booker.

              OPENING STATEMENT OF SENATOR BOOKER

    Senator Booker. I think Senator Lankford's line of 
questioning is really right on and I would like to pick up 
right where he left off.
    First of all, you say, in your testimony, that you can 
defeat the group in Raqqa, Mosul, and Fallujah, but these 
defeats will remain tactical, unless the group is discredited 
by the same people it claims to represent. Could you go a 
little deeper into that? So, what then, specifically, are you 
advising for us to do, as we get these--we are shrinking their 
territory, clearly, but it seems like you are saying that we 
are giving them more strength, in some ways, by the way that we 
are doing it. Can you be a little more specific about what you 
are suggesting?
    Mr. Hassan. That is a good question. I think we defeated 
ISIS. If I want to speak as the other side, ISIS was defeated 
in Iraq, in 2006, after the surge. But, ISIS came back and took 
Mosul--was defeated from 2006 to 2010. It was a very marginal 
organization in Iraq. Sunni Arabs, in the areas that ISIS 
operated in, defeated the organization, worked with the 
Americans, and policed their areas. That worked.
    But then, the policy that followed, in 2010, when the 
United States pulled out of Iraq--before Iraq was able to 
govern itself--and because there was support--perceived 
support--between the--cooperation between the United States and 
Iran to work with Maliki, who was a sectarian prime minister--
and work with him, despite the fact that he was weakened and 
there was a rival--another Shia rival--who was more moderate 
and more tolerant--was supported.
    And then, the mistakes that followed that very success--the 
success that was between 2006 and 2010--led to circumstances 
that enabled ISIS, in 2012, to tell all Sunnis in these areas, 
``Look, the only way forward is for us to work together and 
reject this government from our area.'' And, they were able to 
rally people--mobilize people against this government. And, 
that is why they were able to take Mosul in 2014--in the summer 
of 2014--took Mosul, forced the Iraqi army to drop its arms and 
flee, took massive weaponry--American weaponry--and marched 
back into Syria. And, they took Deir Ezzor, fortified Raqqa, 
took some of Hasakah, and so on. They became a strong 
organization, because of the political failures. And, my fear 
is that there is so much focus on the military component, 
rather than on the political, social, and religious dimensions 
to what is going on there.
    Senator Booker. And so, I see your point. And, I also 
appreciate that, in your testimony, you discussed how we, in 
the West, should be trying to discredit--or have Islamic voices 
discredit Daesh. And, maybe, that gets me to your testimony, 
which I thought was really wonderful--discussing all of the 
ways that they are perverting Islam in the way that they are 
waging their war and taking advantage of our political 
failures, in terms of how we are gaining territory.
    And so, this is not a clash of civilizations. This is about 
people perverting Islam and taking advantage of political 
realities. And so, I just want to get from you--and, you said 
this already, but I want to go one step deeper. For those of us 
who focus so much on Countering Violent Extremism (CVE) 
efforts, here in the Senate, what are the specific tactics 
then, to start to expose ISIL for their perversions and to 
discredit them? What are some of the best ways to go about 
that?
    Mr. Elgawhary. Thank you, Senator. I think I really believe 
in the counternarrative. And, that is very important, because, 
when I started to do this, less than a year ago, I realized 
that there is no very articulate, very clear-cut 
counternarrative. And, by counternarrative, I mean, how are we 
going to--how does Islam deal with issues of plurality? How do 
we deal with issues of democracy, citizenship, and 
constitutional nation states? All of these things have been 
argued, in the last 200 to 300 years, by Muslim jurists, but 
they are unknown to the vast majority of Muslims.
    So, a lot of the issues that Daesh--or ISIL, whatever--
claim are the bones that they are picking with modernity, 
really, have been dealt with already. It is just the memo has 
not been passed around. So, the counternarrative is effective, 
because it is steeped in very rigorous, authentic scholarship. 
It is based on the primary sources--the Quran and the Sunnah, 
which are very important for orthodox Muslims----
    Senator Booker. And, Doctor, let me interrupt you there, 
because I am being mindful of my time. And, that is helpful, 
and I hope you will make yourself available if we have further 
questions. I just want to say, in my remaining 10 seconds, to 
Mr. Nahas and Ms. Murad, that your testimony was so courageous 
and so moving. The outrageous attacks going on against LGBT 
people in the Middle East and here in the United States, which, 
as you point out in your testimony, are the most common types 
of hate crimes we see--I am grateful for your honesty. And, 
your courage, Ms. Murad, is really just so profound. And, I am 
grateful that you would come here, today, and share your story, 
which is so important to hear.
    Thank you very much.
    Chairman Johnson. Thank you, Senator Booker.
    I actually want to kind of pick up on both Senator Lankford 
and Senator Booker's lines of questioning, just in terms of 
what has been the reality of the situation, in terms of where 
ISIS is, right now, in terms of success--or lack of success--
against it. There is a State Department report, called the 
Study of Terrorism and Responses to Terrorism (START) Report--
very difficult numbers there. They are very inaccurate. They 
are changing all of the time. But, when I looked at it, and I 
did a little calculation, globally, the number of people killed 
in terrorist attacks, prior to 9/11, was a little under 5,000. 
With updated numbers, that has grown five, six, or seven times.
    So, this is a real and, from my standpoint, a growing 
threat. The news reports show that, outside of Syria, ISIS-
inspired attacks have cost 1,191 lives--in just the last 2 
years?--last year. The analogy I have been using, in terms of--
and I realize we have made some progress. We have taken back 
some territory. But, they still control territory. And, the 
analogy I am, somewhat, using is that of a beehive. You might 
have a beehive in your back yard. You can poke it with a stick 
and do damage to the hive, but you are also stirring up the 
hive.
    Is that what we are witnessing? And, what is the danger 
there? And, is it not true that we do have to defeat ISIS--we 
do have to deny them that territory--we have to deny them that 
caliphate? But then, we have a lot of mopping up to do. These 
Islamic terror groups, if anything, they are spreading, they 
are growing, they are evolving, and they are metastasizing. It 
is like a cancer, and we are not winning this battle. Mr. 
Hassan.
    Mr. Hassan. Well, I come from the perspective that ISIS and 
al-Qaeda are growing and there will be other groups that join 
them. So, they are on a trajectory of expanding for the next 
decade--or even two. And, it is important, I think--at this 
moment, ISIS has been rolled back. It has been defeated, 
territorially, in Iraq and Syria--like the statistic mentioned 
before--50 percent in Iraq--they lost 50 percent of their 
territory. In Syria, they lost 20 percent of their territory. 
And, in Libya, they are also on the back foot. And, in Libya, 
they are struggling to even establish any presence there. Al-
Qaeda is doing very well in Yemen. The same thing in 
Afghanistan. They are not doing very well there.
    So, their capacity, currently, is limited. However, I think 
their ability to inflict damage is strong. They benefit from 
the open space, obviously, on the Internet--self-
radicalization--you can become self-radicalized by watching a 
video by Anwar al-Awlaki, the American citizen who was killed 
in a drone attack in 2011, I think. It is very easy to become 
one of them. The radicalization--the sort of radicalization 
that leads someone to ISIS is swift and animating, meaning they 
can push a person, in a very short time, to do some damage. It 
is very hard to predict it, but it is there. It is a danger 
that will remain for----
    Chairman Johnson. But, a short answer--I mean, the gains we 
are rolling up in Syria and Iraq, does that give you much 
comfort? Because you are saying this is a long-term project. 
You think they are going to be growing in strength over the 
next decade or two?
    Mr. Hassan. Yes. And, briefly, that is good. The problem is 
the other tracks: the political track, the social track, and 
the religious track--the political process in Iraq and Syria--
the conflict--is lagging behind. If they are catching up to the 
military advances, then ISIS will go away for a while. But, for 
now, the problem is the focus on military, while neglecting the 
other things.
    Chairman Johnson. Dr. Elgawhary, I want to shift a little 
bit to the Muslim Brotherhood. I think it is, oftentimes, 
reported as, maybe, a more moderate group. Do you have any 
thoughts about the Muslim Brotherhood?
    Mr. Elgawhary. I have a lot of thoughts about the Muslim 
Brotherhood and similar groups. I think that goes back to what 
I was trying to say earlier--the concept of a spectrum. And, I 
think these Islamist groups--while some of them are on the very 
left of the spectrum and while some of them are not, 
necessarily, open to violence, there are certain procedural 
changes, which, if those took place--if certain boxes were 
ticked on the form--violence then would be authorized. I mean, 
look at what has happened in Egypt, my home country and the 
country of my family.
    So, I think that I am always shocked--utterly shocked--at 
how engaging our government is with organizations, like the 
Muslim Brotherhood, quite frankly. And, when I spoke to people 
in the embassy, in Cairo--when I was living there for a while--
and I said, ``Why do you not engage with Muslim leaders?'' And, 
they said, ``We do. We engage with so-and-so, so-and-so, and 
so-and-so.'' And, they gave me a dropdown list of all of these 
Islamist Muslim Brotherhood activists. So, I think there is a 
big mismatch and I think, by engaging with them so openly and 
so freely, we almost legitimize that approach.
    So, I think that it is dangerous. I think it is definitely 
on the spectrum. It is not necessitated that it will go from 
one end of the spectrum to another, but it is definitely on the 
spectrum that I am concerned about.
    Chairman Johnson. Senator Carper.
    Senator Carper. Thank you. Again, we thank each of you for 
being with us today, for spending this time with us, and for 
sharing your thoughts with us--and your advice as well.
    I want to start with a question. Mr. Hassan, I will start 
with you, but then invite other witnesses to respond, too. I 
think, in your testimony, you wrote that the United States must 
highlight that the war with ISIS is not a sectarian conflict. 
That is pretty much what you said, I think. And, you point out 
that there are Muslims of both Shia and Sunni Islam joining 
Christians, joining Jews, and joining people of all religions 
and ethnic backgrounds in fighting ISIS.
    With that said, some people here, in the United States, are 
trying to paint this battle against ISIS as a broad clash 
between the West and Islam. I think our President has made it 
clear that he believes this kind of rhetoric is dangerous, it 
is patently false, and it plays directly into the hands of 
ISIS. And, I would just ask: Do you agree with this?
    Mr. Hassan. I agree that this is not a sectarian war and 
this is not a war--again--I mean, it is not an ``Islam-versus-
West'' war. In fact, if anything, ISIS is all about Muslims 
versus Muslims. This is what the ideology is built on. We can 
talk about ideas and ideology, but, practically speaking, the 
way that the ideology of ISIS has matured and become kind of 
framed was a reaction to the events that happened after the 
Iraq War--not the Iraq War, itself, but how, for example, 
Sunnis reacted to the presence of Americans on the ground. And, 
they started declaring these people as apostates--and asking, 
``What is the punishment for these people?'' So, they started 
to appropriate events in Islamic history to the context that is 
going on here.
    So, it was not at all about the West. It is about what is 
going on, on the ground, in the Muslim world.
    Senator Carper. Thank you.
    Dr. Elgawhary, again, the question is: Do you agree that 
portraying this war against ISIS as a war against Islam plays 
directly into the hands of ISIS--or not?
    Mr. Elgawhary. I mean, I sort of agree with what Hassan was 
saying. I think, if anything, the victim of ISIL is Islam, 
itself. And, they have definitely declared war on our scholars, 
our normative tradition, and our Sunni and our Shia sects. And, 
that is the biggest tragedy. And, I do not think that--and I 
think that our best allies in this are normative Muslims, who 
are people like me. I mean, my life is threatened just by being 
here, speaking out against this. And, I do not say that 
lightly. And, I think that I want to stop that even more, 
probably, than you do. I mean, I really want this to end and I 
want to know what I can do to push that forward. And, I think, 
in that desire, exists the greatest ally we have to counter the 
rhetoric and the ideas that are coming out of ISIL.
    Senator Carper. All right. Thank you.
    Mr. Nahas, the same question, please.
    Mr. Nahas. I am sorry. I do not have the capacity to answer 
this question.
    Senator Carper. All right.
    Nadia, do you want to respond to that question, please? Do 
you agree that painting this war against ISIS as a war against 
Islam plays directly into the hands of ISIS and, inadvertently, 
that we are helping ISIS by portraying this as a war against 
Islam?
    Ms. Murad [Interpreted.] The first thing I did was I went 
to Egypt and tried to deliver that message, because, the things 
that happened to me, I wanted to go to these countries and to 
tell them what happened to me.
    I want to prevent the youth from joining the Islamic State. 
I went and I told them what crimes were committed, what actions 
the took, and what ideology they had. I want to stop the flow 
of the youth to them.
    Speaking against this is not help for Daesh. You have to 
speak against it. Also, minimizing the role of Daesh, or their 
power, is not right, because, only as its border, it is more 
than 3,000 miles--and they protect it all. Tens of thousands 
are fighting for them.
    Some of our villages are only 150 people living in a small 
village. We have not been able to recapture these villages for 
a year and a half. So, how about the big cities? It is not a 
small power.
    Speaking against ISIS does not mean speaking against Islam 
and also does not mean speaking in favor of Sunnis or Shias--
one against another. When we all speak together against this, 
then we are united. Then, we can defeat it.
    Senator Carper. All right. My time has expired.
    Mr. Chairman, you and I are both supporting legislation 
that would strengthen the ability of the Department of Homeland 
Security to reach out to faith communities--to reach out to 
civic groups, parents, and community leaders in order to 
prevent ISIS from recruiting Americans, which we believe is the 
greatest threat that we face. If I could just have 30 seconds 
and ask Dr. Elgawhary, what advice would you give the 
Department of Homeland Security, as they put together and 
implement this outreach to a broad community--to focus on 
reducing the likelihood that people will be radicalized here? 
Just give us, maybe, one strong piece of advice for the 
Department of Homeland Security.
    Mr. Elgawhary. Work with us.
    Senator Carper. OK. Thank you.
    Chairman Johnson. Thank you, Senator Carper.
    I will give all of the witnesses a chance to just have a 
closing comment after we go to Senator Booker. But, I do want 
to ask Nadia a quick question. Who helped you to escape?
    Ms. Murad [Interpreted.] A Muslim family.
    Chairman Johnson. That answers your question. Senator 
Booker.
    Senator Booker. Doctor, Senator Carper asked a pointed 
question, to which you said, ``Help us,'' basically, to help 
you. But, we are looking at specific efforts that have been 
going on to activate lone wolves in the United States as well 
as cells in Belgium and France. And, this is part of the war 
that, obviously, hits Western countries right where they are--
being preached at--where citizens of those countries and 
American citizens are finding the ISIS ideology and the 
perversion of Islam so compelling that they are willing to take 
up arms against their fellow citizens in Europe or in the 
United States of America. And, clearly, we are doing a lot 
already, trying to empower local organizations in our 
communities, working with mosques, and we have had panels here 
where folks have given testimonies about that. We now have 
allocated more resources toward that. I have been one of the 
people saying CVE efforts should not be law enforcement's 
focus. They should be focused on empowering communities and 
empowering those networks. If CVE becomes just more police, 
more surveillance, and more of that, it is not going to really 
help us deal with the core of the problem. And, what I found so 
compelling about you is, you pointed out so clearly--in a way 
that I learned a lot from your testimony--so clearly that this 
is a perversion of Islam. This is not Islam we are fighting 
against. This is about people that are using it to fuel hatred, 
violence, and, as Hassan Hassan said, tactically, for political 
objectives--to control territory and to expand the reach of 
their totalitarian ends.
    But, my concern is, I still think we need to be doing 
more--frankly, a lot more--to counter that narrative. And, I 
liked what you said in one of your responses, that another 
paper--another 150-page paper is not that effective against the 
means that you often see online that often seduce and pull in 
sort of vulnerable souls to this kind of terrorist activity.
    So, I understand your sort of short answer to a short 
question, but I am trying to figure out what the specific 
strategies are. And, we are seeing some of them that are 
working, where you expose the fact that ISIL is killing far 
more Muslims--killing far more Sunnis--than they are killing 
people in the West, which really begins to expose this, so that 
those young people who might be susceptible to them see them 
for who they are--naked before their eyes. And, those are the 
kind of strategies that we need to start really investing in 
more.
    And so, in the 2 minutes I left you, after a 3-minute 
preamble, could you go, really, to the core of those things 
that, if you were making the investments in the budgets that we 
have to oversee--where would you be placing those dollars, more 
specifically?
    Mr. Elgawhary. We have a very successful model, in 
Montgomery County, called ``The Brave Model.'' It is a public-
private partnership. We work with law enforcement. We work with 
the County Executive. It is a really good program. It is 
getting national recognition. We are trying to export this 
model and train other people, in other counties in the country 
that need this type of message.
    What I do, in this model, is I do a lot of the 
counternarrative. I would love to be in a position where I 
could train other young Muslim leaders, in this country and our 
counterparts in Western Europe, on what these points--I did the 
research. I am happy for them to take it. I am happy for them 
to say that they did it. Maybe my colleagues will be upset 
about that, but I am happy for people just to get the message 
out there.
    I also mentor people--people that might be on the spectrum, 
who are referred to us by law enforcement or the school board--
that might be on the spectrum, but there is no capacity for 
local government to deal with them. I sit down with them. I 
talk with them. I try to decipher: Is there a problem? Are they 
on the spectrum? Is it a mental health issue? Then we try to 
refer them out to county-wide programs that will help them.
    So, this public-private partnership is working. It is 
working in our county. And, I think, if I had some say on the 
purse strings, I would like to see us be in a position to train 
other counties, first--wherever in the country it is needed the 
most--and I would like us to go overseas to Western European 
cities, like Brussels or London, and work with our counterparts 
over there to train them in this model.
    Senator Booker. And, that is a proactive strategy that 
often saves a lot of money, in terms of the reaction that we 
have to do with law enforcement or, God forbid, something 
happening. Today, your testimonies have been testimonies of 
courage, which, as you said, people should understand that you 
are risking your life by coming here, by speaking truth, and by 
laying bare the evil that we are up against. And, for that, I 
am deeply grateful.
    Chairman Johnson. Thank you, Senator Booker. And, you are 
right. I mean, just think of the evil--that people are 
threatening somebody speaking the truth--with their lives.
    Again, I would like to offer all of the witnesses about a 
minute to just make a final comment. And, we will start with 
you, Mr. Hassan.
    Mr. Hassan. I think we sort of covered most of the ground, 
but I want to just emphasize that we all need to show ISIS--
show what it is like on the ground--like what it does to the 
people that it claims to represent. We need to emphasize that 
these are its victims as much as the others are. And, I think 
that needs to be present in the media. It is not one person's 
war. It is everyone's war.
    Chairman Johnson. Thank you, Mr. Hassan.
    By the way, Doctor, you had the harder questions because 
you have ``Doctor'' in front of your name. [Laughter.]
    Mr. Elgawhary. It is actually at the end of the name.
    Senator Johnson and Senator Carper, thank you for the 
opportunity to address the Committee and to submit testimony 
about something that is much more than work. This is something 
very personal. I think of my children when I come here and how 
the rhetoric--even though they are young--the political 
rhetoric, unfortunately, is something that scares them. And, I 
hope that what we are doing here will help build a more 
resilient homeland, so that the America that they grow up in 
will be better than the America that I grew up in.
    Thank you.
    Chairman Johnson. Mr. Nahas.
    Mr. Nahas. Thank you, Senators, for the opportunity and for 
allowing me to speak in front of you. And, every time that I 
have a chance to speak and to talk about my experience, I 
always think about my counterparts that are still in danger--
that are still under threat, especially, because they are 
different and because they do not conform with other people's 
expectations. And, I hope that the United States will take a 
stand and will be more active in holding governments and other 
actors on the ground accountable for their actions--and do 
something about this.
    Thank you so much.
    Chairman Johnson. Thank you. Ms. Murad.
    Ms. Murad [Interpreted.] Thank you. And, thank you also to 
all of the attendees and witnesses who came here.
    I wish that we could all work together and stand up 
together to stop this terrorism. I would like also for you to 
recognize our genocide and to bring every single one from 
ISIS--whether a leader, someone in the middle, or soldiers--to 
bring everyone who committed these crimes to justice.
    Chairman Johnson. We would love to see that.
    Again, thank you very much----
    Senator Carper. Mr. Chairman, before we adjourn----
    Chairman Johnson. Senator.
    Senator Carper. I do not have any more questions, but I, 
certainly, would like to thank all of you. And, one of the key 
takeaways for me here is, we talk a lot here about the Golden 
Rule: Treating other people the way we want to be treated. We 
both have children. Our children are out of school and out into 
the world. But, in the schools that they went to, there was 
bullying. And, in some cases, I remember, as a parent, I was 
aware of some bullying that was going on and I was, actually, 
going to the school and speaking out against it, trying to make 
sure that that did not persist. And, I think we were 
successful.
    But, I applaud folks of the Islamic faith--I really applaud 
those who are speaking up, in some cases, at risk--at real risk 
to your own personal safety. I want to make sure you do not pay 
any price for that, but that is a matter of real concern.
    But, for the kids who are being bullied, because they 
happen to have a name like Elgawhary, Hassan, Nahas, or Murad, 
I especially am concerned about them--that they, somehow, are 
paying a price as well. And, I think, if I were giving them 
advice, it would be to be vocal and brave in speaking out 
against the kinds of abuses that we see perpetrated by ISIS. 
And, I think, maybe, the best protection that they have is to 
denounce those kind of activities. And, it may be a hard thing 
to ask kids to do, but I think, in the end, they will be safer. 
And, I think, ultimately, they will feel better about their own 
situation.
    Thank you.
    Chairman Johnson. Thank you, Senator Carper.
    Again, I want to thank all of the witnesses for your 
testimonies and for your courage. You, certainly, have, I 
think, accomplished our goal of laying out a reality and 
helping us understand this better. We have a long way to go in 
fully understanding this--the American people do--but you have, 
certainly, helped that. So, again, thank you for your 
testimonies and your courage.
    The hearing record will remain open for 15 days until July 
6 at 5 p.m. for the submission of statements and questions for 
the record. This hearing is adjourned.
    [Whereupon, at 12:04 p.m., the Committee was adjourned.]





                            A P P E N D I X

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
